aN |

@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-430

ATHENA DIAGNOSTICS, INC., OXFORD
UNIVERSITY INNOVATION LTD., and
MAX-PLANCK-GESELLSCHAFT ZUR

FORDERUNG DER WISSENSCHAFTEN E.V.,
Petitioners,
v.
MAYO COLLABORATIVE SERVICES, LLC, dba
MAYO MEDICAL LABORATORIES, and MAYO CLINIC,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF PROFESSORS
JEFFREY A. LEFSTIN AND PETER S. MENELL AS AMICI CURIAE IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5958 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \ 4 4h
State of Nebraska . Le ,
My Commission Expires Nov 24, 2020 ¢

 

 

Notary Public Affiant 38921
